HHS/OIG Audit:"Review of The Rhode Island Insurance Intercept Program,"(A-01-01-02508)
Department
of Health and Human Services
"Review of The Rhode Island Insurance Intercept Program," (A-01-01-02508)
May 13, 2002
Complete
Text of Report is available in PDF format (496 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate the effectiveness of Rhode Islands procedures for identifying and intercepting
insurance claim payments from non-custodial parents (NCP) with past due child support.  Rhode Islands insurance intercept
program collected $528,583 from 154 of the 364 insurance payments whose claims matched with the States delinquent child
support database from April 1999 to August 2001.  While the remaining 210 matches were still pending at the time of
our review, we estimate that the State could collect as much as $720,720.  In total, the State could collect as much
as $1,249,303 ($528,583 + $720,720) in child support from its insurance intercept program for the 364 matches.  Our
analysis of amounts collected showed:  (i) reduced outstanding child support by 45 percent, (ii) increased financial
support to NCP children, and (iii) recovered public assistance paid to custodial parents and their children.  The
insurance intercept program also provided the State IV-D agency with current information to locate NCPs, and may increase
Federal incentive payments.